                                          76674                     Federal Register / Vol. 71, No. 245 / Thursday, December 21, 2006 / Notices

                                          comments regarding this document at                     information technology, human                         operation of information technology
                                          any time. Submit electronic comments                    resources, executive resources and OIG                systems. Organizational focus includes
                                          to http://www.fda.gov/dockets/                          space management. OMP also executes                   four key areas of (1) Technology
                                          ecomments. Submit two paper copies of                   and maintains an internal quality                     planning and governance, (2)
                                          any mailed comments, except that                        assurance system, which includes                      information assurance, (3) infrastructure
                                          individuals may submit one copy.                        quality control reviews of OMP                        and communications, and (4) systems
                                          Comments are to be identified with the                  processes and products, to ensure that                and applications support. Technology
                                          docket number found in brackets in the                  OIG policies and procedures are                       projects provide a basic network
                                          heading of this document. Comments                      followed effectively and function as                  infrastructure for a widely distributed
                                          received may be seen in the Division of                 intended.                                             organization across the nation, and
                                          Dockets Management between 9 a.m.                                                                             mission-related technology to conduct
                                                                                                  Section AFC.10, Office of Management
                                          and 4 p.m., Monday through Friday.                                                                            the business of OIG.
                                                                                                  and Policy—Organization
                                            Dated: December 13, 2006.                                                                                   D. Planning, Reporting, and Analysis
                                                                                                    The office is comprised of the
                                          Jeffrey Shuren,
                                                                                                  following components.                                   This office is responsible for
                                          Assistant Commissioner for Policy.                        A. Immediate Office                                 coordinating the development and
                                          [FR Doc. E6–21901 Filed 12–20–06; 8:45 am]                B. Budget Operations                                preparation of the work plan, including
                                          BILLING CODE 4160–01–S                                    C. Information Technology                           coordinating strategic long-range
                                                                                                    D. Planning, Reporting, and Analysis                planning, tactical planning, and the
                                                                                                    E. Administrative Services
                                                                                                                                                        annual work plan organization and
                                          DEPARTMENT OF HEALTH AND
                                                                                                  Section AFC.20, Office of Management                  production. It compiles the Office of
                                          HUMAN SERVICES
                                                                                                  and Policy—Functions                                  Inspector General Semiannual Report to
                                          Office of the Secretary                                                                                       Congress and manages updates of the
                                                                                                  A. Immediate Office of the Deputy
                                                                                                                                                        Unimplemented OIG Recommendations
                                                                                                  Inspector General for OMP
                                          OFFICE OF INSPECTOR GENERAL                                                                                   report, which is a compendium of
                                                                                                    This office is directed by the Deputy               significant OIG recommendations to
                                          Statement of Organization, Functions,                   Inspector General for OMP who, aided                  reduce fraud, waste and abuse that have
                                          and Delegations of Authority                            by an Assistant Inspector General, is                 not been fully implemented.
                                                                                                  responsible for assuring that the OIG has
                                            This notice amends Part A (Office of                  the financial and administrative                      E. Administrative Services
                                          the Secretary), chapter AF of the                       resources necessary to fulfill its mission.              This office is responsible for
                                          Statement of Organization, Functions,                   The Deputy Inspector General                          overseeing emergency operations and
                                          and Delegations of Authority for the                    supervises the Directors for the Budget               national security classification policy.
                                          Department of Health and Human                          Division, Corporate Business Division,                The office conducts management
                                          Services (HHS) to reflect title changes                 and Service and Support Division                      studies and analyzes, establishes, and
                                          and responsibilities within the Office of               within the Office of Information                      coordinates general management
                                          Inspector General’s (OIG) Office of                     Technology, Planning, Reporting and                   policies for OIG and publishes those
                                          Evaluation and Inspections (OEI), Office                Analysis Division, and Administrative                 policies in the OIG Administrative
                                          of Management and Policy (OMP),                         Services Division.                                    Manual. This office is also accountable
                                          Office of Investigations (OI), and Office                                                                     for the OIG framework for the
                                          of Audit Services (OAS). The statement                  B. Budget
                                                                                                                                                        organizational assessment, and space
                                          of organization, functions, and                           This office formulates and oversees                 management for Washington, DC
                                          delegations of authority conforms to and                the execution of the budget and confers               headquarters and over 90 geographic
                                          carries out the statutory requirements                  with the Office of the Secretary, the                 locations nationwide.
                                          for operating OIG. Chapter AF was last                  Office of Management and Budget, and                     The office serves as OIG liaison to the
                                          published in its entirety on April 18,                  Congress on budget issues. It also issues             Office of the Secretary for personnel
                                          2005 (70 FR 20147).                                     quarterly grants to States for Medicaid               issues and other administrative policies
                                            These organizational changes are                      Fraud Control Units and arranges                      and practices; including human
                                          primarily to realign the functions of                   internal control reviews for OIG,                     resources (HR), training, facilities, asset
                                          OMP, OAS, OI, and OEI to better reflect                 including the development of                          management, executive resources, and
                                          the current work environment and                        Government Performance and Results                    the performance management system, in
                                          priorities and to more clearly delineate                Act goals.                                            addition to equal employment
                                          responsibilities for the various activities                                                                   opportunity and other civil rights
                                          within these offices.                                   C. Information Technology
                                                                                                                                                        matters. These functions support all
                                            As amended, sections AFC.00,                            This office is directed by the Assistant            components of the OIG organization,
                                          AFC.10, AFC20, AFE.10, AFE.20,                          Inspector General for Management and                  except the HR function, which services
                                          AFH10, AFH.20, and AFJ.20 of Chapter                    Policy who also serves as the Chief                   all OMP staff.
                                          AF now reads as follows:                                Information Officer for the Office of
                                                                                                                                                        *     *     *      *    *
                                          *     *     *     *     *                               Inspector General. The office is
                                                                                                  responsible to support the Office of                  Section AFE.10, Office of Evaluation
                                          Section AFC.00, Office of Management                    Inspector General and its components in               and Inspections—Organization
                                          and Policy—Mission                                      completing their missions, by providing                 This office is comprised of the
                                            The Office of Management and Policy                   quality services for managing and                     following components:
                                          (OMP) provides mission support                          processing information through the
sroberts on PROD1PC70 with NOTICES




                                                                                                                                                          A. Immediate Office
                                          services to the Inspector General and                   selected application of technology in a                 B. Budget and Administrative
                                          other OIG components by formulating                     collaborative and secure manner. The                  Resources Division
                                          and executing the budget, developing                    office operates under the guidelines of                 C. Evaluation Planning and Support
                                          policy, disseminating OIG information                   Federal regulations, mandates, and                    Division
                                          in the form of publications, managing                   directives for the development and                      D. Regional Operations


                                     VerDate Aug<31>2005   17:01 Dec 20, 2006   Jkt 211001   PO 00000   Frm 00044   Fmt 4703   Sfmt 4703   E:\FR\FM\21DEN1.SGM   21DEN1
                                                                    Federal Register / Vol. 71, No. 245 / Thursday, December 21, 2006 / Notices                                            76675

                                             E. Technical Support Staff                           initiatives to determine the effects of               techniques for use in detecting fraud,
                                             F. Medicaid Oversight Staff                          current policies and practices on                     waste and abuse in HHS programs.
                                          Section AFE.20, Office of Evaluation                    program efficiency and effectiveness.
                                                                                                                                                        E. Audit Management and Policy
                                          and Inspections—Function                                These offices recommend changes in
                                                                                                  program policies, regulations, and laws                  This office is directed by the Assistant
                                          A. Immediate Office of the Deputy                       to improve efficiency and effectiveness               Inspector General for Audit
                                          Inspector General for OEI                               and to prevent fraud, abuse, waste, and               Management and Policy. The office
                                            This office is directed by the Deputy                 mismanagement. They analyze existing                  manages OAS’s human and financial
                                          Inspector General for OEI who, with the                 policies to evaluate options for future               resources by developing staff allocation
                                          assistance of an Assistant Inspector                    policy, regulatory, and legislative                   plans, monitoring budget execution,
                                          General, is responsible for carrying out                improvement.                                          overseeing recruiting and training, and
                                          OIG’s evaluations mission. The Deputy                                                                         participating in the development of
                                                                                                  F. Medicaid Oversight Staff                           administrative policies and procedures.
                                          Inspector General supervises the
                                          Assistant Inspector General, the Director                 The Medicaid Oversight Staff is                     It maintains a professional development
                                          for Budget and Administrative                           responsible for overseeing the activities             program for office staff, which meets the
                                          Resources, and the Director of the                      of the 49 State Medicaid Fraud Control                requirements of Government auditing
                                          Medicaid Fraud Unit Oversight                           Units (MFCUs). The division ensures                   standards. The office evaluates audit
                                          Division. The Assistant Inspector                       the MFCUs’ compliance with Federal                    work, including performing quality
                                          General supervises the Directors of                     grant regulations, administrative rules,              control reviews of audit reports, and
                                          Evaluation and Planning and Support                     and performance standards. The                        coordinates the development of and
                                          and Technical Support, as well as all                   division is also responsible for                      monitors audit work plans. It operates
                                          Regional Operations.                                    certifying and recertifying the MFCUs                 and maintains an OAS-wide quality
                                                                                                  on an annual basis.                                   assurance program that includes the
                                          B. Budget and Administrative Resources                                                                        conduct of periodic quality control
                                             This office develops OEI’s evaluation                Section AFH.10, Office of Audit
                                                                                                                                                        reviews. It develops audit policy,
                                          and inspection policies, procedures and                 Services—Organization
                                                                                                                                                        procedures, standards, criteria and
                                          standards. It manages OEI’s human and                     The office is comprised of the                      instructions to be followed by OAS staff
                                          financial resources; develops and                       following components:                                 in conducting audits of departmental
                                          monitors OEI’s management information                     A. Immediate Office                                 programs, grants, contracts or
                                          systems; and conducts management                          B. Financial Management and                         operations. Such policy is developed in
                                          reviews within the HHS/OIG and for                      Regional Operations                                   accordance with GAGAS and other
                                          other OIGs upon request. The office                       C. Centers for Medicare and Medicaid                legal, regulatory and administrative
                                          carries out and maintains an internal                   Services Audits                                       requirements. The office tracks,
                                          quality assurance system that includes                                                                        monitors and reports on audit resolution
                                                                                                    D. Grants, Internal Activities, and
                                          quality assessment studies and quality                                                                        and follow-up in accordance with OMB
                                                                                                  Information Technology Audits
                                          control reviews of OEI processes and                                                                          Circular A–50, ‘‘Audit Follow-up,’’ and
                                          products to ensure that policies and                      E. Audit Management and Policy
                                                                                                                                                        the 1988 Inspector General Act
                                          procedures are effective, followed, and                 Section AFH.20, Office of Audit                       Amendments. The office coordinates
                                          function as intended.                                   Services—Functions                                    with other OIG components in
                                          C. Evaluation Planning and Support                      *      *      *      *       *                        developing input to the Office of
                                                                                                                                                        Inspector General Annual Work Plan, to
                                            This office manages OEI’s work                        D. Grants, Internal Activities, and                   the Office of Inspector General’s
                                          planning process, and develops and                      Information Technology Audits                         Unimplemented OIG Recommendations,
                                          reviews legislative, regulatory and
                                                                                                    This office is directed by the Assistant            and to the Office of Inspector General
                                          program proposals to reduce
                                                                                                  Inspector General for Grants, Internal                Semiannual Report to the Congress.
                                          vulnerabilities to fraud, waste, and
                                          mismanagement. It develops evaluation                   Activities, and Information Technology                *     *     *      *     *
                                          techniques and coordinates projects                     Audits. The office conducts and                       Section AFJ.20, Office of
                                          with other OIG and departmental                         oversees audits of the operations and                 Investigations—Functions
                                          components. It provides programmatic                    programs of the Administration for
                                          expertise and information on new                        Children and Families, the                            *        *   *    *    *
                                          programs, procedures, regulations, and                  Administration on Aging, and the                      B. Investigative Operations
                                          statutes to OEI regional offices. This                  Public Health programs, as well as
                                          office maintains liaison with other                     Statewide cost allocation plans. It                     The Assistant Inspector General for
                                          components in the Department, follows                   maintains an internal quality assurance               Investigative Operations, who
                                          up on implementation of corrective                      system, including periodic quality                    supervises a headquarters staff and the
                                          action recommendations, evaluates the                   control reviews, to provide reasonable                Special Agents in Charge, directs this
                                          actions taken to resolve problems and                   assurance that applicable laws,                       office.
                                          vulnerabilities identified, and provides                regulations, policies, procedures,                    *     *     *     *    *
                                          additional data or corrective action                    standards and other requirements are                    4. The regional offices conduct
                                          options, where appropriate.                             followed in its audit activities. The                 investigations of allegations of fraud,
                                                                                                  office reviews the design, development                waste, abuse, mismanagement, and
                                          D. Regional Operations                                  and maintenance of Department                         violations of standards of conduct
                                            Regional Offices comprise OEI’s                       computer-based systems through the                    within the jurisdiction of OIG in their
sroberts on PROD1PC70 with NOTICES




                                          offices in the field. The regional offices              conduct of comprehensive audits of                    assigned geographic areas. They
                                          conduct extensive evaluations of HHS                    general and application controls in                   coordinate investigations and confer
                                          programs and produce the results in                     accordance with applicable                            with HHS operating division, staff
                                          inspection reports. They conduct data                   requirements and develops and applies                 divisions, OIG counterparts, and other
                                          and trend analyses of major HHS                         advanced computer-based audit                         investigative and law enforcement


                                     VerDate Aug<31>2005   17:01 Dec 20, 2006   Jkt 211001   PO 00000   Frm 00045   Fmt 4703   Sfmt 4703   E:\FR\FM\21DEN1.SGM   21DEN1
                                          76676                     Federal Register / Vol. 71, No. 245 / Thursday, December 21, 2006 / Notices

                                          agencies. They prepare investigative and                725 17th Street, NW., Washington, DC                  respondents, including the use of
                                          management improvement reports.                         20503, to the attention of the Desk                   automated collection techniques or
                                                                                                  Officer for the Coast Guard.                          other forms of information technology.
                                          C. Investigative Oversight and Support                                                                           Comments to DMS or OIRA must
                                                                                                     (2)(a) By delivery to room PL–401 at
                                            This office is directed by the Assistant              the address given in paragraph (1)(a)                 contain the OMB Control Number of the
                                          Inspector General for Investigative                     above, between 9 a.m. and 5 p.m.,                     ICRs addressed. Comments to DMS
                                          Oversight and Support, who performs                     Monday through Friday, except Federal                 must contain the docket number of this
                                          the general management functions of the                 holidays. The telephone number is (202)               request, [USCG 2006–25747]. For your
                                          Office of Investigations.                               366–9329. (b) By delivery to OIRA, at                 comments to OIRA to be considered, it
                                          *     *     *     *     *                               the address given in paragraph (1)(b)                 is best if OIRA receives them on or
                                            9. The office directs and manages                     above, to the attention of the Desk                   before January 22, 2007.
                                          extremely sensitive and complex                         Officer for the Coast Guard.                             Public participation and request for
                                          investigations into alleged misconduct                     (3) By fax to (a) the Facility at (202)            comments: We encourage you to
                                          by OIG and Departmental employees, as                   493–2298 or by contacting (b) OIRA at                 respond to this request for comments by
                                          well as criminal investigations into                    (202) 395–6566. To ensure your                        submitting comments and related
                                          electronic and/or computer-related                      comments are received in time, mark                   materials. We will post all comments
                                          violations.                                             the fax to the attention of Mr. Nathan                received, without change, to http://
                                                                                                  Lesser, Desk officer for the Coast Guard.             dms.dot.gov, they will include any
                                            Dated: December 18, 2006.
                                                                                                     (4)(a) Electronically through the Web              personal information you have
                                          Daniel R. Levinson,                                                                                           provided. We have an agreement with
                                                                                                  site for the Docket Management System
                                          Inspector General.                                                                                            DOT to use their Docket Management
                                                                                                  (DMS) at http://dms.dot.gov. (b) By e-
                                          [FR Doc. E6–21857 Filed 12–20–06; 8:45 am]              mail to nlesser@omb.eop.gov.                          Facility. Please see the paragraph on
                                          BILLING CODE 4152–01–P                                     The Docket Management Facility                     DOT’s ‘‘Privacy Act Policy’’ below.
                                                                                                  maintains the public docket for this                     Submitting comments: If you submit a
                                                                                                  notice. Comments and material received                comment, please include your name and
                                          DEPARTMENT OF HOMELAND                                  from the public, as well as documents                 address, identify the docket number for
                                          SECURITY                                                mentioned in this notice as being                     this request for comment [USCG–2006–
                                                                                                  available in the docket, will become part             25747], indicate the specific section of
                                          Coast Guard                                             of this docket and will be available for              this document or the ICR to which each
                                                                                                  inspection or copying at room PL–401                  comment applies, and give the reason
                                          [USCG–2006–25747]
                                                                                                  on the Plaza level of the Nassif Building,            for each comment. You may submit
                                          Collection of Information Under                         400 Seventh Street, SW., Washington,                  your comments and material by
                                          Review by Office of Management and                      DC, between 9 a.m. and 5 p.m., Monday                 electronic means, mail, fax, or delivery
                                          Budget: OMB Control Numbers: 1625–                      through Friday, except Federal holidays.              to the Docket Management Facility at
                                          0086                                                    You may also find this docket on the                  the address under ADDRESSES, but
                                                                                                  Internet at http://dms.dot.gov.                       please submit them by only one means.
                                          AGENCY:    Coast Guard, DHS.                                                                                  If you submit them by mail or delivery,
                                                                                                     Copies of the complete ICR is
                                          ACTION:   Request for comments.                                                                               submit them in an unbound format, no
                                                                                                  available through this docket on the
                                                                                                  Internet at http://dms.dot.gov, and also              larger than 81⁄2 by 11 inches, suitable for
                                          SUMMARY: In compliance with the
                                                                                                  from Commandant (CG–611), U.S. Coast                  copying and electronic filing. If you
                                          Paperwork Reduction Act of 1995, this                                                                         submit them by mail and would like to
                                          request for comments announces that                     Guard Headquarters, room 10–1236
                                                                                                  (Attn: Mr. Arthur Requina), 2100 2nd                  know that they reached the Facility,
                                          the Coast Guard is forwarding an                                                                              please enclose a stamped, self-addressed
                                          Information Collection Request (ICR),                   Street, SW., Washington, DC 20593–
                                                                                                  0001. The telephone number is (202)                   postcard or envelope.
                                          abstracted below, to the Office of                                                                               The Coast Guard and OIRA will
                                          Information and Regulatory Affairs                      475–3523.
                                                                                                                                                        consider all comments and material
                                          (OIRA) of the Office of Management and                  FOR FURTHER INFORMATION CONTACT: Mr.                  received during the comment period.
                                          Budget (OMB) to request a revision of a                 Arthur Requina, Office of Information                 We may change the documents
                                          currently approved collection of                        Management, telephone (202) 475–3523                  supporting this collection of
                                          information. The ICR is 1625–0086,                      or fax (202) 475–3929, for questions on               information or even the underlying
                                          Great Lakes Pilotage. Our ICR describes                 these documents; or Ms. Renee V.                      requirements in view of them.
                                          the information we seek to collect from                 Wright, Program Manager, Docket                          Viewing comments and documents:
                                          the public. Review and comments by                      Operations, (202) 493–0402, for                       To view comments, as well as
                                          OIRA ensures that we impose only                        questions on the docket.                              documents mentioned in this notice as
                                          paperwork burdens commensurate with                     SUPPLEMENTARY INFORMATION: The Coast                  being available in the docket, go to
                                          our performance of duties.                              Guard invites comments on the                         http://dms.dot.gov at any time and
                                          DATES: Please submit comments on or                     proposed collection of information to                 conduct a simple search using the
                                          before January 22, 2007.                                determine whether the collection is                   docket number. You may also visit the
                                          ADDRESSES: To make sure that your                       necessary for the proper performance of               Docket Management Facility in room
                                          comments and related material do not                    the functions of the Department. In                   PL–401 on the Plaza level of the Nassif
                                          reach the docket [USCG–2006–25747] or                   particular, the Coast Guard would                     Building, 400 Seventh Street, SW.,
                                          OIRA more than once, please submit                      appreciate comments addressing: (1)                   Washington, DC, between 9 a.m. and 5
                                          them by only one of the following                       The practical utility of the collections;             p.m., Monday through Friday, except
                                          means:                                                  (2) the accuracy of the estimated burden              Federal holidays.
sroberts on PROD1PC70 with NOTICES




                                            (1)(a) By mail to the Docket                          of the collections; (3) ways to enhance                  Privacy Act: Anyone can search the
                                          Management Facility, U.S. Department                    the quality, utility, and clarity of the              electronic form of all comments
                                          of Transportation (DOT), room PL–401,                   information that is the subject of the                received in dockets by the name of the
                                          400 Seventh Street, SW., Washington,                    collections; and (4) ways to minimize                 individual submitting the comment (or
                                          DC 20590–0001. (b) By mail to OIRA,                     the burden of collections on                          signing the comment, if submitted on


                                     VerDate Aug<31>2005   17:01 Dec 20, 2006   Jkt 211001   PO 00000   Frm 00046   Fmt 4703   Sfmt 4703   E:\FR\FM\21DEN1.SGM   21DEN1
